Audit Report




OIG-12-060
SAFETY AND SOUNDNESS: Failed Bank Review of Plantation
Federal Bank
July 26, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              July 26, 2012


            OIG-12-060

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Plantation Federal Bank, Pawleys
                                  Island, South Carolina


            This memorandum presents the results of our review of the failure of Plantation
            Federal Bank (Plantation) located in Pawleys Island, South Carolina, and the
            supervision of the bank by the former Office of Thrift Supervision (OTS) and the
            Office of the Comptroller of the Currency (OCC). OTS regulated Plantation until
            July 21, 2011, when OCC assumed regulatory responsibility for federal savings
            associations pursuant to P.L. 111-203.

            Plantation opened in 1986 as a stock association under its former name, Plantation
            Federal Savings and Loan Corporation; it was acquired by Plantation Financial
            Corporation in 1990. Plantation is a wholly-owned subsidiary of Plantation Financial
            Corporation, a unitary nondiversified savings and loan holding company. Plantation
            had a main office in Pawleys Island and five branches in the Grand Strand and
            Greenville areas of South Carolina. OCC closed Plantation and appointed the
            Federal Deposit Insurance Corporation (FDIC) as receiver on April 27, 2012. As of
            December 31, 2011, Plantation had approximately $486.4 million in total assets
            and $440.5 million in total deposits. As of May 31, 2012, FDIC estimated the loss
            to the Deposit Insurance Fund at $75.9 million.

            Because the loss to the Deposit Insurance Fund was less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
            of the failure of Plantation that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OTS and OCC reports of
            examination, and (3) interviewed an OCC problem bank specialist. We performed
            our fieldwork during May and June 2012.
OIG-12-060
Page 2

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Causes of Plantation’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank was in an unsafe and unsound condition to transact
business, (3) the bank was undercapitalized and failed to submit an acceptable
capital restoration plan, and (4) the bank was critically undercapitalized.

The primary cause of Plantation’s failure was its board of directors’ and
management’s implementation of an aggressive growth strategy without having
sufficient capital or adequate risk management practices to support the growth. As
part of a 5-year plan formulated in 2006, Plantation pursued rapid growth by
(1) merging with First Savers Bank of Greenville, South Carolina, which increased
the bank’s total assets by approximately $298 million, and (2) focusing on higher
risk commercial-related lending like nonresidential mortgage, construction, and land
loans. The bank’s holding company planned to raise $20 million in capital to
support its strategy but was ultimately unable to do so. Examples of the bank’s
inadequate risk management practices were inaccurate loan classifications,
appraisal deficiencies, and a flawed allowance for loan and lease losses
methodology. The aggressive growth and concentration in higher risk loans along
with the deficient risk management practices resulted in losses which eventually
depleted capital and ultimately led to Plantation’s failure.

Conclusion
Based on our review of the causes of Plantation’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OTS
and OCC. Accordingly, we have determined that a more in-depth review of the
bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of Plantation’s
failure and that it had no concerns with our determination that an in-depth review
OIG-12-060
Page 3

of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-12-060

       Attachment 1
Management Response
                                                       OIG-12-060

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
